 

IN THE

Supreme Court of the Anited States

RODNEY REED,
Petitioner,
Vv.
THE STATE OF TEXAS,
Respondent,

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this
24" day of September, 2019, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing PETITION FOR WRIT OF CERTIORARI by placing said
copies in the U.S. mail, first class postage prepaid, addressed as listed below.

Matthew Ottoway
Office of the Attorney General
for the State of Texas
P.O. Box 12548, Capitol Station
Austin, TX 78711
matthew.ottoway @texasattorneygeneral.gov

   
  

D CHARLES CLARK
Byfon S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

District of Columbia: SS

Subscribed and Sworn to before me this 24 day of September, 2019.

IN PIERANGELI
NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2020.

 

 

 

 
